No. 19-373

Sn the Supreme Court of the United States

JAMES WALKER.,
Petitioner,

v.
UNITED STATES,

Respondent.

On Writ of Certiorari To The
United States Court of Appeals
For the Sixth Circuit

CERTIFICATE OF COMPLIANCE

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 13, 2020

2

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE
NATIONAL ASSOCIATION FOR PUBLIC DEFENSE AS AMICIUS CURIAE IN
SUPPORT OF PETITIONER contains 5,987 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).

DANIEL T. HANSMEIER
500 State Avenue

Suite 201

Kansas City, KS 66101
(918) 551-6901
daniel_hansmeier@fd.org
